No. 20-1197

In the Supreme Court of the United States
EUGENE MILTON CLEMONS II, PETITIONER,
v.
JEFFERSON S. DUNN, COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS, ET AL.
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with the
foregoing Brief of Amicus Curiae the R Street Institute in Support of Petitioner and
Certificate of Compliance by electronic mail. All parties consented to electronic
service consistent with this Court’s April 15 Order.
Linda T. Coberly
Counsel of Record
Winston & Strawn, LLP
35 West Wacker Drive
Chicago, IL 60601
(312) 558-8768
lcoberly@winston.com

Henry Mitchell Johnson
Counsel of Record
State of Alabama,
Office of the Attorney General
501 Washington Avenue
Montgomery, Alabama 36130
(334) 353-9095
hjohnson@ago.state.al.us

Counsel for Petitioner
Counsel for Respondent
I declare under penalty of perjury the foregoing is true and correct. Executed on
March 31, 2021.

Saul P. Morgenstern
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
250 West 55th Street
New York, NY 10019
(212) 836-8000
saul.morgenstern@arnoldporter.com
March 31, 2021

